    4

9


                                          OFFICE OF INVESTIGATIONS

                                  CLOSEOUT MEMORANDUM




        There was no closeout written at the time this case was closed. The following information was
        extracted fi-om the file in conformance with standard closeout documents.

        Our office was informed that the subject1was alleged to have embezzled $30,500.00. The subject
        plead guilty and died2prior to sentencing. $34,194.71 was recovered from the company.'

        The attached documents constitute the closeout for this case.




        OIG-02-2
                                                                     U.S. Department of Justice

                                                                     Federal Bureau of Investigation
                                                                                                             S722~3
     In Reply, Please Refer to                                        Cincinnati, Ohio
     File No.

      76R -a--
            i530[                                                     January 24, 1994

                                         JOHN HAMPDEN MORTON, JR.,
                                       also known as, John H. Morton
                                       FRAUD AGAINST THE GOVERNMENT
                The investigation involving subject John Hampden
      Morton, Jr., also known as (aka) John H. Morton, was predicated
      upon information received from the National Science Foundation -
      Office of Inspector General (OIG), indicating Morton had
      embezzled monies from the Minorities In Mathematics, Science and
      Engineering (M~SE)Program at the University of Cincinnati,
      Cincinnati, Ohio. The M ~ S Eis a federally funded organization
      which assists minorities at the University of Cincinnati.
                The program director for M'SE advised Morton was
      employed as a Financial Director for M ~ S Efrom October 28, 1991,
      until mid-December, 1991. The program.director further provided
      copies of M ~ S Ebank documents indicating Morton had embezzled
      approximately $35,000.00.
                The joint National Science Foundation - OIG/FBI
      investigation further proved Morton had embezzled monies while
      employed for M~SE. Morton later provided a signed statement to
      the National Science Foundation - OIG and FBI Agents admitting to
      taking monies from M~SE.
                Subsequent to providing Agents with a signed statement,
      Morton fled to Los Angeles, California, where he was arrested by
      FBI Agents. Morton entered a plea of guilty to a five count
      Information charging him with violation of Title 18, U.S. Code,
      Section 641 (Embezzlement of Government Funds), in the Central
      District of California, pursuant to Rule 20.
                Morton's sentencing was continued on several occasions
      because Morton was dying from the Acquired Immune Deficiency
      Syndrome (AIDS) and on November 9, 1992, Morton died as a result
      of AIDS.




This docunent contains neither recumnendations nor conclusions of the F B I . I t i s the property of the FBI and i s Loaned t o
your agency; i t and i t s contents are not t o be distributed outside your agency.
